No.

IN THE
SUPREME COURT OF THE UNITED STATES
WASHINGTON, D.C.
RONALD PYLES JR. -PETITIONER

vs.

CHARMAINE BRACY (Warden) -RESPONDENT
PROOF OF SERVICE
I, Ronald Pyles Jr., do swear or declare that on this (date), as required by Supreme Court Rule
29 I have served the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS AND
PETITION FOR A WRIT OF CERTIORARI on each party to the above proceeding or that party’s
counsel, and on every other person required to be served, by depositing an envelope containing the
above documents in the United States mail properly addressed to each of them and with first-class
postage prepaid, or by delivery to a third-party commercial carrier for delivery within 3 calendar days.

The names and addresses of those served are as follows:
Dave Yost, Attorney General________
James A Rhodes State Office Tower
30 East Broad St. 17th Floor
Columbus, OH 432J_5-----------------------------

I declare under penalty of perjury that the foregoing is true and correct.
Executed on (date)

Ronald Pyles Jr., #634-885

20

